HHS/OIG, Audit -"Review of Undistributable Child Support Collections in Ohio From
October 1, 1998, Through September 30, 2004,"(A-05-04-00075)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Undistributable Child Support Collections in Ohio From October 1, 1998, Through September
30, 2004," (A-05-04-00075)
November 7, 2005
Complete
Text of Report is available in PDF format (570 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the State agency appropriately reported program
income for undistributable child support collections and interest earned on program funds.  The
State agency did not report program income totaling $2,870,137 ($1,894,291 Federal share)
for undistributable child support collections and did not recognize program income of $500,352
($330,233 Federal share) for unclaimed and undistributable collections that should have been
considered abandoned.
We recommended that the State agency: (1) adjust program income for undistributable collections
of $2,870,137 ($1,894,291 Federal share); (2) work with State officials and county agencies
to transfer $500,352 ($330,233 Federal share) of unclaimed collections to trust fund accounts
and recognize undistributable collections as program income after 5 years; and (3) work with
State officials and county agencies to implement policies and procedures and provide program
oversight to ensure that future undistributable collections, after being unclaimed for 5
years, are recognized as program income on the quarterly Federal financial report.  The
State agency agreed with the audit findings.